                                                National Railroad Passenger Corporation
                                                Office of Inspector General
                                                10 G Street N.E.
	                                              Washington, DC 20002




       AMTRAK EMPLOYEE DISMISSED FOR THEFT AND FAILURE TO TAKE A DRUG TEST
                                   MAY 7, 2013
                                CASE # IL-13-0028


OIG investigated allegations that an Amtrak machinist stole company property and
smoked marijuana at work. A small amount of Amtrak property was recovered during a
search of the employee’s home. The employee initially agreed, but later declined, to
take a drug test. The employee was dismissed after a formal administrative hearing.
